             U.S. Department of the Interior
                 Office of Inspector General




            Abandoned Government of the Virgin Islands building at Estate Slob, St. Croix
                                                      Office of Inspector General photo



            Management of Real Property
          Government of the Virgin Islands


Report No. V-IN-VIS-0002-2005                                        May 2007
               United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                   Western Region Office
                               2800 Cottage Way, Suite E-2712
                                Sacramento, California 95825

                                                                                May 18, 2007


Honorable John P. de Jongh, Jr.
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, VI 00802

Re: Final Audit Report Management of Real Property, Government of the Virgin Islands
   (Report No. V-IN-VIS-0002-2005)

Dear Governor de Jongh:

       The enclosed report presents the results of our audit of the management of
Government-owned real property by the Virgin Islands Department of Property and
Procurement (DP&P). The objective of our audit was to determine whether the Government
(1) maintained adequate inventory control over real property; (2) maximized the leasing out
of excess government-owned property, including timely collection of rental income; and
(3) minimized the leasing of private property for government use.

        We were encouraged to find up-to-date property inventory records and a system of
formal procedures to administer leases. However, we also found that DP&P has not used
these procedures to maximize leases of Government-owned property and minimize the need
for the Government to lease privately owned property. In effect, both as landlord and
procurer of private space for Government agencies, DP&P has not acted in the best interest
of the Government of the Virgin Islands. The financial impact of this failure is substantial,
with nearly $1 million in rental revenues that can no longer be collected, over $2 million in
rental revenues that remain uncollected, and nearly $6 million in revenues that could have
been saved or spent more wisely (see Appendix 1).

        In one instance, for example, the Government, through DP&P, did not pursue an
opportunity to purchase privately owned space being rented to house Government agencies.
As a result, the Government, as of September 30, 2005, had paid more than $3 million in
lease payments that could have been applied towards the $4.2 million asking price for the
property. Although other instances were not as dramatic, such as the failure to encourage
payment agreements for seriously delinquent tenants or file proof of Government claims in
bankruptcy cases, they collectively point to the need for DP&P to aggressively use and
tighten existing lease administration procedures. We also noted that the Department of
Public Works (DPW), despite repeated overtures from DP&P, has not met the mandate of the
Legislature (Act No. 6289) to develop cost estimates for repairing and reclaiming abandoned
Government property, an essential step in reducing the amount of annual rent paid for
Government office space. We made six recommendations, which, if implemented, should
significantly improve DP&P’s ability to manage real property to the financial benefit of the
Government.

        In his March 1, 2007 response to our draft report (Appendix 2), the Acting Governor
of the Virgin Islands, through the management of DP&P, concurred with all of our
recommendations and provided action plans to address each recommendation. As such, we
consider Recommendations 1, 2, 3, 4, and 5 to be resolved and implemented and
Recommendation 6 to be resolved, but not implemented. The status of the recommendations
is shown in Appendix 3.

        The legislation, as amended, creating the Office of Inspector General (OIG) requires
that we report to the U.S. Congress semiannually on all audit reports issued, the monetary
effect of audit findings (Appendix 1), actions taken to implement our audit recommendations,
and recommendations that have not been implemented.

       Please provide a response to this report by June 22, 2007. The response should
provide the information requested in Appendix 3 and be addressed to Mr. Hannibal M. Ware,
Field Office Supervisor, Office of Inspector General, Caribbean Field Office, Ron deLugo
Federal Building, Room 207, Charlotte Amalie, Virgin Islands 00802. We appreciate the
cooperation shown by DP&P staff during our review. If you have any questions regarding
the report, you may contact me at (916) 978-5653 or Mr. Ware at (340) 774-8300.

                                            Sincerely,



                                            Michael P. Colombo
                                            Regional Audit Manager

Enclosure

cc: Commissioner, Department of Property and Procurement
    Commissioner, Department of Public Works




                                             2
CONTENTS
                                         Background .................................................................................1
INTRODUCTION                             Objective and Scope....................................................................1
                                         Prior Audit Coverage ..................................................................2

                                         Overview .................................................................................... 3
RESULTS OF AUDIT                         DP&P Deficiencies in Leasing Out Government-Owned
                                          Property .................................................................................... 3
                                         DP&P Deficiencies in Leasing Privately Owned Space
                                          for Government Use ................................................................ 8
                                         Failure of DPW to Estimate Costs to Repair
                                          Abandoned Government Properties........................................10

                                         To the Governor of the Virgin Islands .......................................12
RECOMMENDATIONS
                                         Government of the Virgin Islands’ Response and OIG
                                          Reply .......................................................................................13

                                         Monetary Impact ......................................................................14
APPENDICES                               Government of the Virgin Islands’ Response ..........................15
                                         Status of Audit Recommendations............................................25




Acronyms
DP&P...................................................................Department of Property and Procurement
DPW ........................................................................................Department of Public Works
OIG ............................................................................................Office of Inspector General
VIC ....................................................................................................... Virgin Islands Code



                                                               i
INTRODUCTION
                DP&P is authorized by the Virgin Islands Code (VIC)1 to
BACKGROUND      manage and control all real and personal property owned by the
                Government of the Virgin Islands, including acquisitions,
                dispositions, commercial leasing, and property distribution.
                Through its Property Division, DP&P manages Government
                leasehold contracts and agency requests for office space and is
                responsible for related real estate management activities,
                including negotiation; contract preparation; and property
                inspection, appraisal, and survey.

                Recognizing operational problems within DP&P’s Property
                Division on St. Thomas, the Commissioner of Property and
                Procurement established a property task force in January 2005.
                The task force was charged with reviewing all of DP&P’s
                business and commercial accounts to ensure that delinquent
                tenants became current in the rental and legal obligations under
                their leases. The task force began meeting with tenants to
                (1) execute payment agreements to liquidate any outstanding
                balances, (2) renew expired leases, and (3) ensure compliance
                with requirements for business licenses and liability insurance.
                These efforts, which were underway when our audit began in
                May 2005, are still ongoing. At the time of our audit, DP&P’s
                Property Division managed 149 business and commercial
                leases of Government-owned property to private businesses
                and 129 active leases of private property for use by
                Government agencies.

                The objective of our audit was to determine whether the
OBJECTIVE AND   Government (1) maintained adequate inventory control over
SCOPE           real property; (2) maximized leasing of excess Government-
                owned property, including timely collection of rental income;
                and (3) minimized leasing of private property for Government
                use. We judgmentally selected and reviewed 39 business and
                commercial lease agreements and 28 leases for Government
                office space in effect during fiscal years 2000 through 2005.
                Our sample was selected based on the length of time contracts
                and permits were in effect for business and commercial lease
                agreements, and the dollar amount of Government leases for
                office space.



                1
                    3 VIC § 202(a).


                                      1
              Audit work was performed from May 2005 to October 2006.
              To accomplish our objective, we interviewed officials and
              reviewed lease agreements, payment records, and related
              correspondence at DP&P offices on St. Thomas and St. Croix.
              We also reviewed related information at the Tax Assessor’s
              Office and the Department of Finance on St. Thomas. In
              addition, we performed site visits and inspections of businesses
              leasing property from DP&P and abandoned Government-
              owned property.

              Our audit was conducted in accordance with the Government
              Auditing Standards, issued by the Comptroller General of the
              United States. Accordingly, we included such tests of records
              and other auditing procedures that we considered necessary
              under the circumstances. As part of our audit, we evaluated the
              internal controls related to the management of real property,
              including leasing, monitoring, and rent collection, to the extent
              we considered necessary to accomplish the audit objective.
              Internal control weaknesses identified as a result of our audit
              are discussed in the Results of Audit section of this report. The
              recommendations, if implemented, should improve the internal
              controls in property management.

              During the past 5 years, we have not issued any audit reports
PRIOR AUDIT   on real property management by the Government of the Virgin
COVERAGE      Islands. We did note, however, that the two most recent
              reports, one issued in October 1986 (No. V-TG-VIS-13-85) and
              the second in July 1991 (No. 91-I-1056), both identified the
              collection of delinquent rental receivables as a problem.




                               2
RESULTS OF AUDIT
                     We found that property inventory records were up-to-date and
 OVERVIEW
                     formal lease administration procedures have been established.
                     However, DP&P has not maximized leases of Government-
                     owned property or minimized leases of private property for
                     Government use. In renting space for Government agencies,
                     DP&P spent nearly $6 million that could have been saved or
                     used more wisely. Deficiencies included leasing privately
                     owned space when suitable Government-owned space was
                     available, failing to follow up on opportunities to purchase
                     privately owned space being rented by Government agencies,
                     and approving leases that exceeded established rental rate
                     limits and included renovation costs for private buildings. We
                     also found that DPW was not compliant with the mandate of
                     the Virgin Islands Legislature in estimating the cost of
                     repairing and renovating abandoned Government properties.

                     Of the 149 active business and commercial accounts, 96, or
DP&P                 64 percent, were delinquent by more than $1.2 million as of
DEFICIENCIES IN      August 31, 2005. Our review of 39 accounts disclosed that
LEASING OUT          DP&P neglected to notify tenants of their delinquent status or
GOVERNMENT-          evict delinquent tenants. DP&P’s Property Manual requires
OWNED                notices be sent to delinquent tenants on the following schedule
PROPERTY             (Figure 1):
 ►DP&P Did not
 Collect Over        No. of Days
 $1.2 Million in     Payment
 Delinquent Rental   Delinquent                    Notice Description
 Payments            After 30 Days   Notice of Default/Delinquency after a tenant
                                     misses a rental payment and does not meet
                                     with Property Division personnel to discuss
                                     remedies
                     31 to 60 Days   Notice to Cure
                     61 to 90 Days   Notice to Terminate
                     After 91 Days   Notice to Vacate, with a filing through the
                                     Virgin Islands Department of Justice for
                                     adjudication by the courts
                                                                            Figure 1

                     Of the 39 accounts reviewed, 22 had no documented evidence
                     of any attempts by DP&P to collect balances that had been
                     outstanding and delinquent for periods of up to 12 years. For
                     example:


                                     3
                     ¾ DP&P allowed Family Broadcasting, Inc., to occupy
                       Government property without paying rent for more than
                       12 years and accumulate an outstanding balance of $94,700
                       before DP&P sent a letter detailing the history of
                       nonpayment. The tenant signed a payment agreement2 for
                       $73,508, but then filed for bankruptcy protection. The U.S.
                       District Court for the Virgin Islands notified DP&P that it
                       must file proof of claim by August 11, 2005, to recoup any
                       delinquent rent. DP&P failed to file, and the Government
                       of the Virgin Islands is at risk of not being able to collect
                       any of the money it is owed.

                     ¾ DP&P allowed Wings Auto Parts to occupy Government-
                       owned property without making rental payments for up to
                       3½ years and to accumulate an outstanding balance of
                       $35,175. When the tenant filed for bankruptcy protection,
                       the District Court discharged all claims against the owner
                       as of the date of the action. DP&P was unable to recoup
                       any of the outstanding balance, but continued to allow the
                       tenant to occupy the property without paying rent for
                       3 more years and accumulate $13,180 in additional unpaid
                       rent. DP&P eventually issued a Notice to Vacate, but had
                       not taken any serious eviction action as of the end of our
                       audit.

                     At the close of our audit, DP&P was in the process of preparing
                     eviction notices for 11 other delinquent tenants.

►DP&P Did Not        DP&P also failed to collect nearly $1.9 million in additional
Collect Nearly       rental income and related fees because it did not (1) monitor or
$1.9 Million in      bill for tenant sublease activity, (2) use correct rental receivable
Additional Rental    calculations when entering into payment agreements,
Income and Related   (3) implement rental rate increases stipulated by lease
Fees                 agreements, and (4) accurately assess or record late fees (see
                     Figure 2).




                     2
                      A legal document that states an agreed-upon delinquent rent amount and a
                     payment plan to liquidate the debt.


                                        4
                           Uncollected Rent and Fees Totaled Nearly $1.9 Million

                                            $175,822 $18,793



                                 $309,143



                                                                               $1,006,106




                                    $344,384



                        Uncollected Sublease Fees            Incorrect Calculations
                        Uncollected Rental increases         Uncollected Rental Fees
                        Uncollected Expired Lease Renewals

                                                                                       Figure 2

Uncollected     DP&P did not adequately monitor or bill for tenant subleasing.
Sublease Fees   With one exception, every lease agreement executed by DP&P
Totaled         allowed tenants to sublease with the understanding that they
$1,006,106      would pay DP&P a specified percentage of sublease income.
                We conducted physical inspections of 10 tenants leasing space
                in the Crown Bay area of St. Thomas, where DP&P is located,
                and found that 5 tenants were subleasing. We identified
                $1,006,106 in outstanding sublease fees, with three tenants
                responsible for the majority of this amount (Figure 3).

                    Sublease Fee Payments Owed as of September 30, 2005
                                              Percentage of Sublease
                     Tenant                  Income Owed To DP&P                            Amount
                Island Laundries          15 to 25 percent of monthly                        $616,748
                                          sublease income
                MDM                       10 percent of monthly sublease                    $300,591
                Enterprises               income for first 10 years of
                                          lease; 15 percent for the second
                                          10 years
                Skif Corporation          10 percent of monthly sublease                     $84,568
                                          income for 2003 and 2004 and
                                          15 percent from 2005 onwarda
                Total                                                                   $1,001,907

                                                                                             Figure 3
                a
                  We calculated the $84,568 based on the percentages shown. Skif
                Corporation did not have a sublease provision in its lease until January
                2003, when the lease came up for renewal. Had a sublease provision been
                in place prior to January 2003, Skif would have paid $3.2 million over a 15-
                year period.




                                      5
Incorrect          DP&P did not adequately review the terms of lease agreements
Calculations       and coordinate with its Fiscal Division before executing
Resulted in
Lost Rental
                   payment agreements with delinquent tenants, resulting in
Revenues of        significantly understated tenant delinquencies and the loss of
$344,384           $344,384 in rental income in 5 of the 39 cases reviewed. The
                   most extreme example was the American Furniture account,
                   which comprised $199,697 of the uncollected amount.
                   American Furniture was chronically delinquent with its lease
                   payments, with lapses of up to 19 consecutive months. DP&P
                   made many attempts to collect the outstanding balances and
                   signed two payment agreements; however, both payment
                   agreements had significant computational errors (Figure 4).



                              American Furniture Payment Agreements
                                                                     Correct        Difference
                                                      Amounts        Amounts         Between
                                                      Accepted       Per OIG          DP&P
                            Description               by DP&P         Review         and OIG
                                                                 a
                   First Payment Agreement –           $26,580         $138,587      -$112,007
                   May 2002
                   Amounts Owed After First            $154,512        $242,202       -$87,690
                   Agreement
                   Total Delinquent Amount             $181,092        $380,789      -$199,697
                   Owned
                   Less Payments by American
                   Furniture                           -$51,162        -$51,162              $0
                   Final Payment Agreement –
                            b
                   May 2005                            $129,930       $329,627c      -$199,697

                                                                                       Figure 4
                   a
                     Did not account for outstanding balances prior to September 1998, rental
                     rate increases, or late penalties.
                   b
                     Did not account for increases to the monthly rental rate.
                   c
                     Includes the $112,007 difference carried forward from the first agreement.


Uncollected
                   DP&P did not monitor the terms of each agreement and
Rental Increases   therefore either did not implement rental increases stipulated in
Resulted in Lost   lease agreements or implemented the increases up to 8 years
Revenues of        after they were due. As a result, about $309,143 in rental
$309,143           revenue was lost for 9 of the 39 accounts reviewed. Two
                   examples demonstrate:

                   ¾ DP&P lost rental income of $110,325 on a lease with
                     MDM Enterprises. The March 1991, 20-year lease
                     agreement called for rental increases every 5 years, but
                     DP&P did not notify MDM of the first increase until more


                                       6
                         than 4 years after it became effective and never notified
                         MDM of the second increase. Although the Fiscal Division
                         added $110,325 to MDM’s outstanding balance, DP&P’s
                         attorney reversed the entry based on an opinion by the
                         Virgin Islands Attorney General that tenants could not be
                         required to pay retroactive rental increases that they were
                         not told about.

                      ¾ DP&P lost rental income of $71,618 on a lease with
                        Victor’s New Hide Out. The August 1994 lease agreement
                        called for a fixed rate increase in March 1996, along with
                        increases every 5 years, based on changes in the Consumer
                        Price Index starting in September 1999. However, the
                        tenant continued to pay the original monthly lease amount
                        until notified by the Fiscal Division 4 years after the
                        increase was due. The Fiscal Division again added these
                        delinquent amounts to the tenant’s outstanding balance,
                        which were also reversed based on the same opinion by the
                        Virgin Islands Attorney General.

    Uncollected
                      Of the 39 accounts reviewed, 32 had instances where late fees
    Late Payment      were either not assessed or were incorrectly assessed, resulting
    Penalty Fees      in the loss of at least $175,822. Lease agreements generally
    Resulted in       included provisions for late fees of either 10 percent of any
    Losses Totaling   monthly amount more than 10 days late or 1 percent
    $175,822
                      compounded monthly of any amount more than 60 days late.
                      For example, a lease agreement with the V.I. Metal Shop
                      required a 1 percent fee compounded monthly for
                      delinquencies of more than 60 days. Although V.I. Metal Shop
                      was never current on lease payments from October 1984 to
                      September 1989, DP&P did not assess any late fees. After
                      September 1989, DP&P recorded late fees, but did so at
                      10 percent of the monthly balance, rather than at the specified
                      1 percent compounded rate. Over the life of this lease, DP&P
                      failed to assess or collect a total of $32,336 in late fees.

►DP&P Did Not         DP&P did not renew expired lease agreements. Of the
Renew Expired         39 accounts reviewed, 23 had expired leases that had not been
Leases or Monitor     renewed for periods ranging from 1½ to 23 years. As a result,
Compliance With       DP&P did not adjust rental rates to reflect increases in fair
Other                 market value or in the Consumer Price Index, resulting in
Requirements          additional, undeterminable lost revenues. Although we could
                      not determine the overall lost revenues because of the lack of
                      historical information, we did identify $18,793 in additional
                      rental income that should have been collected for Haulover
                      Marine Inc. The 1-year lease with Haulover Marine, which



                                      7
                      began on October 1, 1992, continued for 12 years, although the
                      lease was never renewed. On four occasions, Haulover Marine
                      requested approval to enter into a long-term lease agreement,
                      stating that it was willing to negotiate a reasonable rent
                      increase and spend about $40,000 in capital improvements.
                      However, DP&P did not respond, even though a January 1997
                      property appraisal estimated a fair market monthly rental value
                      of $182 more than Haulover Marine was paying. Had the lease
                      been renewed in 1997 at the recommended rate, DP&P could
                      have realized at least $18,793 in additional income.

                      DP&P also failed to ensure that tenants maintained current
                      business licenses and liability insurance policies. Of the
                      39 accounts reviewed, 30 account files did not have evidence
                      of valid business licenses, and 32 did not have evidence of
                      liability insurance. As a result, DP&P could not be certain that
                      its tenants were in good standing in terms of taxes and other
                      business licensing requirements or that it would be held
                      harmless regarding any actions by its tenants.

 ► DP&P Issued        In addition to its difficulties in lease and associated revenue
 Letters of Good      collection, DP&P issued letters to other Government agencies
 Standing and Lease   certifying that some delinquent tenants were actually in good
 Renewals to          standing regarding their rental payments. In one case, DP&P
 Delinquent Tenants
                      issued a letter of good standing for a tenant that had not paid
                      rent for 6 years. DP&P also entered into new, long-term lease
                      agreements with delinquent tenants without requiring them to
                      pay past due amounts. For example, DP&P allowed Bakale,
                      Inc., to renegotiate a 20-year lease under a new name of Kent
                      Corporation after Bakale’s lease expired in 2003, even though
                      Bakale had a delinquent balance of more than $12,000. DP&P
                      then transferred the balance to Kent Corporation’s account,
                      rather than ensuring that the delinquent amount was paid.

                      In reviewing lease activity related to renting privately owned
DP&P                  space for Government use, we identified nearly $6 million in
DEFICIENCIES IN       funds that could have been saved or more wisely used.
LEASING               Specifically, DP&P neglected to follow up on opportunities to
PRIVATELY             purchase leased property when the purchase was advantageous
OWNED SPACE           to the Government. DP&P also allowed other Government
FOR GOVERNMENT        agencies to negotiate leases, some without competitive
USE                   analysis; and agreed, without due consideration, to renovate
                      space with improvements that would become the property of
                      the lessor. In addition, DP&P allowed other Government
                      agencies to lease private space at rates in excess of limits
                      specified in its own regulations.



                                      8
►DP&P Failed to       As of September 30, 2005, DP&P had paid a private company
Follow Up on          more than $2.1 million for warehouse space for the
Opportunities to      Government’s Central Stores Division, even though
Purchase Privately    Government-owned space was available. The Central Stores
Owned Space Being     Division had vacated a Government-owned warehouse at
Leased by the         Subbase, St. Thomas, in September 1995, when the warehouse
Government            was damaged by Hurricane Marilyn, and leased warehouse
                      space owned by Cousins and Sons. The initial rent of $12,000
                      per month ultimately increased to $24,000 a month. Shortly
                      afterwards, DP&P leased the former Central Stores Division’s
                      Subbase warehouse to American Furniture on a month-to-
                      month basis. In May 1997, DP&P tried to terminate the lease
 DP&P Paid
                      and move the Central Stores Division back to the Subbase
 $2.1 Million to
 Rent Privately       warehouse. However, when American Furniture would not
 Owned Space          vacate, DP&P did not pursue eviction action, but instead
 When                 entered into a 20-year lease with American Furniture with
 Government           payments of $3,750 per month. As of January 2006, the
 Space was
                      Government has paid over $2.1 million to rent this facility,
 Available
                      while its former facility is effectively used for warehousing and
                      other purposes by American Furniture for lease payments of
                      less than $500,000 for the same period. Cousins and Sons
                      offered to sell the warehouse to the Government for
                      $1.7 million in September 1996, but we found no documented
                      evidence that the Government pursued the offer.

                      Lost opportunities to purchase privately owned buildings also
 DP&P Paid More
 Than $3 Million in
                      included the Vitraco Mall on St. Croix owned by Fast Foto,
 Rent that Could      Inc. Fast Foto offered to sell the Mall to the Government in
 Have Been Applied    June 1999 for $4.2 million. The offer allowed the Government
 to a $4.2 Million    to purchase the Mall without any capital outlay, cash deposit,
 Purchase Price       or down payment by applying all of the rental payments
                      (except payments related to maintenance costs) as credit
                      towards the purchase price. The Government has seven leases
                      with Fast Foto and as of September 30, 2005, has paid more
                      than $3 million in lease payments, which could have been
                      applied toward the $4.2 million asking price. The
                      Commissioner of Property and Procurement told us that the
                      offer was not pursued because one of the Government agencies
                      did not want to remain in the building because of poor
                      infrastructure, environmental issues, and plans for a new
                      Government complex that were ultimately tabled owing to
                      funding constraints. The Commissioner conceded that, in
                      hindsight, DP&P’s failure to pursue the offer “looks bad.”




                                       9
 ►DP&P Did Not         In four leases, DP&P did not fulfill its role to procure rental
 Ensure the Best       space for Government agencies, instead limiting its
 Rental Rates and      responsibility to that of signing completed leases submitted by
 Agreed to Renovate    other Government agencies. The VIC3 stipulates that only
 Privately Owned       DP&P can procure rental space for the Government. In
 Space                 addition, DP&P’s Property Manual requires that DP&P meet
                       with any Government agency requesting office space to discuss
                       specific needs and negotiate with potential landlords, based on
                       a comparability study of space for three similar properties. By
                       approving these four leases after the fact, DP&P could not
                       ensure that the Government received the best price or that
                       proper negotiations were conducted prior to entering into the
                       lease agreements.

    Renovation Costs   DP&P has committed to spending $859,625 to renovate
    of Privately       privately owned buildings, with all improvements becoming
    Owned Buildings    the property of the facility owner. This includes improvements
    Total $859,625
                       to the Office of the Lieutenant Governor for bathroom
                       facilities, flooring, and an elevator, costing $169,625, and to
                       the Bureau of Internal Revenue for roof repairs, electrical
                       work, and flooring, costing $690,000. Both agencies were
                       allowed to commit Government funds to improve privately
                       owned property, although several Government-owned
                       properties that could have been used for office space also
                       needed renovations.

                       Recognizing the need to reduce the amount of annual rent paid
FAILURE OF DPW         for office space, the Virgin Islands Legislature passed Act
TO ESTIMATE            No. 6289 in August 1999 requiring DP&P to present a list of
COSTS TO REPAIR        abandoned Government properties to DPW so that DPW could
ABANDONED              estimate the cost of repairing and renovating the buildings.
GOVERNMENT             DP&P submitted the list, which included 7 properties on St.
PROPERTIES             Thomas and 16 properties on St. Croix, to DPW in December
                       1999.

                       As of September 2000, DPW had not provided the required
                       repair estimates. After repeated requests for the estimates by
                       the Commissioner of Property and Procurement, the
                       Commissioner of Public Works stated that his staff did not
                       have the time to assist in the matter. As of January 2006, the
                       Commissioner of Property and Procurement had received no
                       further response from DPW, and there has not been any action
                       toward fulfilling the requirement of Act No. 6289. In the
                       meantime, most of the Government properties in question
                       remain abandoned and serve as targets for vandals and homes
                       3
                           3 VIC § 70.


                                         10
for squatters. The building shown on the cover of this report
and the one shown in Figure 5 are just two examples of
abandoned Government property.




Abandoned Government Building at Bonne Esperance, St. Croix.
                                             (OIG photo)
                                                 Figure 5




                 11
RECOMMENDATIONS
              We recommend that the Governor of the Virgin Islands direct
TO THE        the Commissioner of Property and Procurement to:
GOVERNOR OF
THE VIRGIN    1. Identify delinquent tenants and pursue collection efforts
ISLANDS       aggressively by:

                 a. Requiring all current lessees with delinquent accounts
                    to make full payment or arrangements for monthly
                    liquidation of delinquent accounts. Tenants who fail to
                    pay delinquent balances should be promptly evicted,
                    with their accounts referred to the Attorney General’s
                    Office for collection.

                 b. Assessing and collecting subleasing fees for tenants
                    subleasing Government-owed property.

                 c. Assessing and collecting late payment penalties on
                    delinquent accounts.

              2. Establish and implement a formal lease monitoring
              system to ensure that (a) expired leases are renewed to reflect
              current market rates, (b) rate increases specified by lease terms
              are timely implemented, (c) routine physical inspections of
              Government-owned lease property are performed and
              inspection reports prepared to confirm that only authorized
              tenants and subtenants are on the properties, and (d) liability
              insurance coverage and business licenses are obtained by
              lessees and kept current.

              3. Require DP&P’s Fiscal Division to be notified of
              rental increases to ensure that official payment records reflect
              accurate tenant account balances.

              4. Require, in accordance with their existing policy, DP&P to
              negotiate and execute all leases for Government agencies to
              obtain the most advantageous rental rates for Government
              office or warehouse space.

              5. Contact private property owners who made sales
              proposals to determine if the offers are still valid and determine
              whether the Government should purchase the properties.




                              12
                We also recommend that the Governor direct the
                Commissioner of Public Works to:

                6. Develop, in accordance with Act No. 6289 and
                forward to DP&P, cost estimates for repairs needed to make
                abandoned Government-owned property identified by the
                Commissioner of Property and Procurement usable for
                Government office or warehouse space.

                In his March 1, 2007 response to our draft report
GOVERNMENT OF   (Appendix 2), the Acting Governor of the Virgin Islands,
THE VIRGIN      through the management of DP&P, concurred with all of our
ISLANDS’        recommendations.
RESPONSE AND
OIG REPLY       As part of his response, the Acting Governor provided
                information showing that the DP&P had implemented plans of
                action to address each recommendation. As such, we consider
                Recommendations 1, 2, 3, 4, and 5 to be resolved and
                implemented and Recommendation 6 resolved, but not
                implemented (Appendix 3).




                               13
APPENDIX 1 – MONETARY IMPACT
                                            LOST         UNCOLLECTED      FUNDS TO BE PUT
               FINDING AREA               REVENUES        REVENUES         TO BETTER USE

  DEFICIENCIES IN LEASING OUT GOVERNMENT-OWNED PROPERTY TOTAL
  $3,096,423: ($956,825 + $2,139,598)
  Delinquent Accounts Receivable: ($1,242,175)
  Rental Revenue                            $73,508          $1,133,492
  (Recommendation 1)
  Proof of Claim Filing with U.S.               35,175
  District Court (Recommendation 1)
       Subtotal                            $108,683          $1,133,492
  Additional Rental Income and Related Fees: ($1,854,248)
  Uncollected Sublease Fees                                   1,006,106
  (Recommendation 1)
  Incorrect Calculations of Rent            344,384
  (Recommendation 2)
  Uncollected Rental Increases              309,143
  (Recommendation 2)
  Uncollected Late Payment Penalty          175,822
  Fees (Recommendation 1)
  Renewal of Expired Leases                     18,793
  (Recommendation 2)
       Subtotal                            $848,142          $1,006,106
  DEFICIENCIES IN LEASING PRIVATELY OWNED SPACE FOR
  GOVERNMENT USE TOTAL $5,959,625 ($5,100,000 + $859,625)
  Lost Opportunities to Purchase Privately Owned Space total $5,100,000
  Leasing Private Space in Lieu of                                              $2,100,000
  Government Space
  (Recommendation 4)
  Lease Payments That Could Have                                                 3,000,000
  Been Applied to Purchase Private
  Space (Recommendation 5)
     Subtotal                                                                   $5,100,000
  Other ($859,625)
  Renovations on Privately Owned
  Property (Recommendation 4)                                                      859,625
       Subtotal                                                                   $859,625

           Totals*                         $956,825          $2,139,598         $5,959,625

 *
     All amounts represent local funds.




                                           14
APPENDIX 2 – GOVERNMENT OF THE VIRGIN ISLANDS’
RESPONSE




                        15
16
17
18
19
20
21
22
23
24
APPENDIX 3 – STATUS OF AUDIT RECOMMENDATIONS


     Finding/
 Recommendation      Status                      Action Required
    Reference
      1-5         Resolved and                          None.
                  Implemented.

       6          Resolved, Not        Provide cost estimates for repairs needed
                  Implemented.         to make abandoned Government-owned
                                       property usable for Government office or
                                       warehouse space.




                                  25
